National Aeronautics and Space Administration
Office of Inspector General
Washington, DC 20546-0001




                                                     July 31, 2008

TO:                 Assistant Administrator for Procurement
                    Director, Johnson Space Center

FROM:               Assistant Inspector General for Auditing

SUBJECT:            Final Memorandum on Audit of International Space Station Contracts
                    Government Cost and Price Analyses (Report No. IG-08-024;
                    Assignment No. A-07-020-00)


The Office of Inspector General (OIG) conducted an audit of cost and price analyses for
International Space Station (ISS) contracts. Our objective was to evaluate whether the
ISS contracting officers effectively used cost and price analyses to ensure NASA
contracts and applicable contract modifications were negotiated at fair and reasonable
costs and prices. To accomplish our objective, we statistically sampled, from four ISS
contracts, 35 modifications from a universe of 81 modifications. (Because NASA may
combine several negotiated contract actions into one modification, we had to review
59 contract actions in total to extract our sample of 35 modifications.) The
35 modifications allowed us to project the results of our work to the entire population.
For each contract action, we reviewed ISS contract files to ensure that the required
documentation was present and that cost and price analyses were completed, fully
documented, and the best value for NASA. We also reviewed internal controls as they
related to the objective. (See Enclosure 1 for details on the audit’s scope and
methodology.)

Executive Summary
Our review of the four ISS contract files showed that 17 of 35 modifications, which may
consist of several negotiated contract actions, had all documentation necessary to allow
us to verify NASA’s position on rates used. However, we were unable to obtain all
documentation for 18 of 35 modifications, including contracting officers’ spreadsheets,
which identify NASA’s negotiation position; Forward Pricing Rate Agreements 1


1
    FAR 2.101, “Definitions,” a “forward pricing rate agreement” is a written agreement negotiated between a
    contractor and the Government (Defense Contract Management Agency) to make certain rates available
    during a specified period for use in pricing contracts or modifications. Such rates represent reasonable
    projections of specific costs that are not easily estimated for, identified with, or generated by a specific
    contract, contract end item, or task. These projections may include rates for such things as labor, indirect
    costs, material obsolescence and usage, spare parts provisioning, and material handling.
                                                                                                             2



(FPRAs) or Forward Pricing Rate Recommendations 2 (FPRRs); or when required,
Independent Government Cost Estimates (IGCEs). This incomplete documentation
prevented us from verifying NASA’s position for some or all of the rates for line items,
such as labor, general and administrative expenses, business support, and labor overhead,
within the contract modifications reviewed.

For 26 of 35 modifications, we found that NASA did an adequate job of substantiating
their position. However, for the other 9 modifications, we found that NASA did not
always substantiate, as required by Federal Acquisition Regulation (FAR), the use of a
higher rate than proposed by the contractor or a different rate than recommended by the
Defense Contract Management Agency (DCMA). While the total dollar value negotiated
was minor [$260,330 of $213,977,647 (0.12 percent) or $2,065,311 projected to the
entire population], the documentation deficiencies should be corrected to substantiate
why the government negotiated the higher rates. We are not questioning 3 any of the
$260,330 because the contractors will be paid their actual rates for both labor and
overhead, which may be higher or lower than the negotiated rates once the Defense
Contract Audit Agency (DCAA) completes the fiscal year end incurred (actual) cost
audit. In addition, 26 of the 35 modifications we reviewed required an IGCE because the
contract change request was valued at more than $1 million and changed the contract
baseline (new development or new content); however, we could not find evidence that an
IGCE was completed for 7 of those 26 modifications.

The FAR requires that the head of offices performing contracting functions establish files
containing records of all contractual actions including providing a complete background
as a basis for informed decisions at each step of the acquisition process. As such, ISS
contracting officers should document the rationale for cost and price determinations and
maintain that documentation within the contract file, especially when the lowest costs and
prices are not used. Additionally, ISS personnel should include in the contract file copies
of the contracting officer’s spreadsheets and all FPRAs used for negotiating a
modification.

The ISS Office took corrective action to address incorporating spreadsheets and FPRAs
into the contract files prior to completion of this audit. Therefore, our only
recommendation is that the ISS procurement management reinforce the Station Program
Implementation Plan 4 requirements for development and documentation of IGCEs when

2
    FAR 2.101, “Definitions,” a “forward pricing rate recommendation” is a rate set unilaterally by the
    administrative contracting officer for use by the Government in negotiations or other contract actions
    when forward pricing rate agreement negotiations have not been completed or when the contractor will
    not agree to a forward pricing rate agreement.
3
    Per the Inspector General Act of 1978, a questioned cost is one that is questioned by the OIG because of
    (1) an alleged violation of a provision of a law, regulation, contract, grant, cooperative agreement, or
    other agreement or document governing the expenditure of funds; (2) a finding that, at the time of the
    audit, such cost is not supported by adequate documentation; or (3) a finding that the expenditure of funds
    for the intended purpose is unnecessary or unreasonable.
4
    The Station Program Implementation Plan defines the objectives, organizational structure,
    responsibilities, and processes associated with the ISS Program Planning and Control Office.
                                                                                            3



required and reinforce compliance with FAR requirements to sufficiently document the
contract file to support contract actions taken to include use of rates other than those
recommended by DCMA.

Management’s comments on the draft of this memorandum are responsive (see
Enclosure 2) and the recommendation is closed.

Background
The objective of cost or price analysis is to ensure negotiation of a fair and reasonable
estimated cost (in the case of cost-reimbursement contracts) or price (in the case of fixed-
price contracts) that is in the overall best interest of the Government. A key tenet of
Government cost and price negotiation is the need to structure contract pricing in a
manner that both provides incentives for the contractor and obtains the best value for the
Government. To achieve this objective, contracting officers are given wide latitude in
negotiating contract costs and prices. Cost analysis is the review and evaluation of each
element of a cost estimate and proposed profit or fee to determine reasonableness,
allocability, and allowability. Price analysis is the process of examining and evaluating a
proposed price without evaluation of its separate cost elements and proposed profit.

The purpose of performing a cost-price analysis is to develop a negotiation position that
permits the contracting officer and the offeror an opportunity to reach agreement on a fair
and reasonable price, which is why contracting officers are given wide latitude in
negotiating contract costs and prices. In exercising this latitude, contracting officers may,
for example, select a rate other than the lowest rate if it is determined that the lowest rate
is significantly out of date, provided the rationale and support for all critical decisions
impacting contract pricing are clearly explained and documented in the contract file.

FAR 15.404-1(b)(2) and FAR 15.404-1(c)(2) describe techniques that may be used to
determine price reasonableness. NASA contracting officers are responsible for
exercising the requisite judgment needed to reach a negotiated settlement with the offeror
and are solely responsible for the final agreed-to price. The contracting officer’s
objective is to negotiate a contract type with a price that provides the contractor the
greatest incentive for efficient and economical performance while obtaining the best
value for the Government. The negotiation for contract type and price should be
considered together with risk and uncertainty to the contractor and the Government to
obtain the best value for the Government.

FAR 15.403-4(a)(1) establishes the threshold for obtaining cost or pricing data at
$650,000, therefore our universe included those contract modifications greater than
$650,000. However, FAR 15.403-1(b) identifies exceptions to obtaining cost or pricing
data. Specifically, the contracting officer shall not require the submission of cost or
pricing data to support any action (1) when the contracting officer determines that prices
agreed upon are based on adequate price competition; (2) when the contracting officer
determines that prices agreed upon are based on prices set by law or regulation; (3) when
                                                                                                                 4



a commercial item is being acquired; (4) when a waiver has been granted; or (5) when
modifying a contract or subcontract for commercial items.

While many non-ISS contracts are used to support the ISS Program (ISS funds are put on
other contracts), only seven contracts were negotiated, awarded, and managed by the ISS
Procurement Office:

       •   ARES Corporation (ARES), contract NNJ04AA01C, cost-plus-award-fee contract
           awarded November 2003;
       •   Barrios Technology Inc. (Barrios), contract NNJ04AA02C, cost-plus-award-fee
           contract awarded November 2003;
       •   The Boeing Company (Boeing), Contract NAS15-10000, cost-plus-award-fee
           contract awarded November 1993;
       •   The Boeing Company, Contract NAS9-02098, firm fixed price contract awarded
           February 2003;
       •   Lockheed Martin Integrated Systems, Inc. (Lockheed), contract NNJ04AA03C,
           cost-plus-award-fee contract awarded November 2003;
       •   Energia Rocket and Space Corporation (RSC Energia, a Russian company),
           contract NNJ06GA16C, firm-fixed-price contract awarded August 2006; and
       •   Russian Space Agency, Contract NAS15-10110, firm-fixed-price contract
           awarded December 1993.

Our review focused on four contractors, not including the two Russian contractors and
Boeing contract NAS9-02098. The two Russian contracts were excluded from our scope,
and the Boeing contract NAS9-02098 did not meet our sample selection criteria of
reviewing modifications over $650,000. We reviewed specific line items of the contract
modifications and compared rates proposed and used with rates recommended by DCMA
or DCAA. For three contractors (ARES, Barrios, and Lockheed), NASA relies on
DCMA to negotiate rates and DCAA to verify rates. For Boeing, NASA relies on the
DCMA Administrative Contracting Officer to review the forward pricing rates and either
agree with them in the form of an FPRA or recommend rates via an FPRR.

An ISS change request is used to start new or additional work after contract award and is
completed on Form ISS CM005 (Revised September 2007), “International Space Station
Program Change Directive.” An ISS engineer usually submits the change request when
additional work is required. The change request generates a change directive that
explains to the general ISS population the nature of the work requested. The change
directive allows project personnel an opportunity to explain to the ISS population the
impact the change will have on their work. After the change directive is approved, the
contractor is given authorization by the contracting officer to submit a firm cost proposal.
Once the contracting officer receives the cost proposal, technical staff perform a technical
evaluation 5 which is then provided to the contracting officer or contract specialist for

5
    A technical evaluation is the examination of the proposed types and quantities of materials, labor,
    processes, special tooling, facilities, the reasonableness of scrap and spoilage, and other factors in the
    proposal to determine the need for and reasonableness of the proposed resources.
                                                                                              5



incorporation into the pre-negotiation position memorandum (PPM). The contracting
officer, contract specialist, or price analyst begins the cost analysis while the technical
staff reviews the proposal.

In addition, per the Station Program Implementation Plan Volume 1: Station Program
Management Plan Annex G: ISS Program Planning and Control Office, Revision B,
January 2007 (Station Program Implementation Plan), if the change is valued at more
than $1 million and changes the baseline (new development or new content), an IGCE
should be prepared by the Program Planning and Control Office. The contracting officers
also prepare spreadsheets that identify what the contractor is proposing, including hours,
rates, and totals for each labor and overhead category and the Government’s objective
and maximum positions, which include rates for labor and overhead categories. The
contracting officers use these reports (technical evaluation, cost analysis, and IGCE if
applicable) along with the contracting officer spreadsheet when preparing the PPM. The
PPM shows the estimated range the Government is willing to pay. During the pre-
negotiation process, discussions with the contractor can help avoid misunderstandings
regarding the work to be performed. Once both parties come to agreement on the work to
be performed and the cost of that work, the NASA contracting officer will prepare a price
negotiation memorandum (PNM) describing the cost of the work and how they arrived at
that cost. Upon completion of the negotiation, NASA issues a contract modification.

FAR 4.801, “General,” states that the head of each office performing contracting,
contract administration, or paying functions shall establish files containing the records of
all contractual actions. The documentation in the files should be sufficient to constitute a
complete history of the transaction for the purpose of (1) providing a complete
background as a basis for informed decisions at each step in the acquisition process,
(2) supporting actions taken, (3) providing information for reviews and investigations,
and (4) furnishing essential facts in the event of litigation or congressional inquiries.
FAR 4.803, “Contents of Contract Files,” provides examples of records normally
contained, if applicable, in contract files. Some examples are copies of the contract and
all modifications, cost or price proposals, cost or price analyses, records of negotiation,
and any additional documents on which action was taken or that reflect actions by the
contracting officer pertinent to the contract.

Adequate Supporting Documentation Not Always Available
Generally, ISS contracting officers adequately documented the contract files concerning
contracting decisions and included the necessary documentation in the files. However,
we found that the ISS contracting officers did not always document their decisions to use
labor and overhead rates that differed from what the contractor proposed or a rate other
than that recommended by DCMA. In addition, the contracting officers did not always
ensure that the contract files contained all of the needed documentation (contracting
officer spreadsheets and FPRAs) to support the rates used or the Government’s position.

The Boeing base contract was awarded in November 1993 and the ARES, Barrios, and
Lockheed base contracts were awarded in November 2003. We statistically sampled
                                                                                                          6



35 ISS contract modifications out of 81 awarded between fiscal years 2004 and 2007
allowing us to project to the entire population. Because NASA may “bundle” (combine)
several negotiated contract actions into one modification, we had to review 59 contract
actions in total for our sample of 35 modifications.

NASA’s Decisions Concerning Rates Used Were Not Documented in Contract Files

Generally, for 26 of the 35 modifications reviewed (74 percent), we found that ISS
contracting officers did a sufficient job of documenting the Government’s negotiation
position and the rates used. However, for 9 of the ISS modifications reviewed, we found
that NASA contracting officers did not always adequately support decisions regarding
labor and overhead rates selected when negotiating contract changes. Additionally, we
found that for 13 of the 35 modifications (37 percent), NASA contracting officers used a
higher rate than that proposed by the contractor or used a rate other than that
recommended by DCMA (see table).

Table. ISS Contract Modifications Reviewed
                                     Contract    Modifications with Varying            Modifications with
                   Modifications     Actions              Rates Used                 Unsupported Positions
  Contractor         Reviewed       Reviewed     Number         Dollar Value        Number       Dollar Value
ARESa                      1             1            0         $          0             0       $         0
Barriosb                   3             3             0                   0             0                 0
Boeing                    21            37             8            662,273.35           7          169,266.01
Lockheedc                 10            18             5            137,039.27           2            91,063.82
     Total                35            59           13           $ 799,312.62           9       $ 260,329.83
a
  The ARES modification reviewed was to exercise an option to extend the period of performance. Therefore,
  we did not review rates.
b
  The Barrios modifications reviewed were competitive actions that satisfied adequate price competition and
  thereby exempt from the submission of cost or pricing data.
c
  For one Lockheed modification, we were unable to determine or calculate the amount of hours or dollars (base
  value) affected. However, we were able to determine that higher rates than that proposed by the contractor
  and rates other than those recommended by DCMA were used, but not the total affected amount. Therefore,
  the dollar values would be increased.


Specifically, we found three modifications that used higher rates, three modifications that
used lower rates, and seven modifications that used a combination of higher and lower
rates than those proposed by the contractor or recommended by DCMA. Contracting
officers are allowed wide latitude in negotiating contract costs and prices and may select
a rate other than the lowest rate if the contracting officer determines, for example, that the
lowest rate is significantly out of date.

For 9 of the 13 modifications for which varying rates were used, we found that
documentation was not in the contract files to support the use of the higher rates than
those proposed by the contractor or the rates used that were other than those
recommended by DCMA. For example, the PPM or PNM would state that the contractor
proposed rates were accepted as proposed because they were in accordance with the
FPRA. However, the rates on the contracting officers’ spreadsheet did not match the
                                                                                           7



proposed rates. According to FAR 4.801 requirements, the ISS contracting officers
should have sufficiently documented the contract files to provide a complete history of
the transaction that supports the actions taken. Because they did not, we take issue with
$260,330 (or $2,065,311 projected to the entire population) of the 9 modifications
negotiated. The remaining 4 of the 13 modifications had sufficient documentation in the
contract files to support the rates used. Overall, since the modifications reviewed were
associated with cost reimbursable contracts, the contractors will eventually be paid their
actual costs after review of costs and prices and negotiation of final overhead rates during
contract closeout. After delivery and acceptance of the final supplies or services by
NASA, administrative close-out procedures must ensure that among other things (1) all
interim or disallowed costs are settled, (2) price revision is completed, (3) prior year
indirect cost rates are settled, and (4) a contract audit is completed, as required by
FAR 4.804-5, “Procedures for Closing Out Contract Files.” Therefore, we will not know
whether NASA overpaid the ISS contractors until final cost negotiations have been
completed.

Documentation Supporting Rates Used Was Not Always Available in Contract Files

The documentation in contract files should be sufficient to constitute a complete history
of the transaction for providing a complete background as a basis for informed decisions
at each step in the acquisition process; supporting actions taken; and providing
information for reviews and investigations. Contracting personnel did not routinely place
hard copies of the contracting officer’s spreadsheets identifying NASA’s position,
FPRAs, and IGCEs in the contract files. Not having access to all the necessary
documentation prevented us from determining if 7 of 59 contract actions were negotiated
at fair and reasonable costs. For the remaining 52 contract actions, the rates used were
found to be fair and reasonable.

We were unable to obtain all documentation that would have allowed us to compare the
proposed rates, the Government negotiated rates, and DCMA recommended rates because
the needed documentation was not maintained in the contract files. For 21 of 59 contract
actions, contracting officers could not produce spreadsheets and/or FPRAs because
personnel responsible for maintaining the files had retired or changed jobs or the
documentation was lost. (However, for 14 of these 21 contract actions, we were able to
obtain this data from other sources.) In addition, for 12 of the 59 contract actions in
which the PPM or cost analysis cited a specific FPRA date, DCMA had no record of an
FPRA with that date. It seems that the contracting officers cited e-mail dates (e.g.,
e-mails from DCMA confirming a rate) and not the FPRA dates.

In addition, 26 modifications comprised of 31 negotiated contract actions required that an
IGCE be performed. The Station Program Implementation Plan stipulates that an IGCE
be performed if the contract change request is more than $1 million and changes the
contract baseline (new development or new content). We found that 7 modifications
involving 9 negotiated contract actions did not have an IGCE in the contract file but met
the criteria for having one prepared. ISS procurement management indicated that they
could not provide us with evidence that an IGCE was performed to support the
                                                                                              8



negotiation of the 9 contract actions (29 percent of the total negotiated contract actions
reviewed).

Management Action
At the conclusion of our review, we provided an update of our observations and findings
to the ISS Vehicle Sustaining Team Lead/ISS Contracting Officer for the Boeing
Contract (audit point of contact). Based on our update, the ISS procurement management
took action to address our issue related to the lack of supporting documentation for all the
contracts. An e-mail dated January 9, 2008, was sent to the ISS contracting group
requesting that they implement the following changes:

   •   The contract file should contain a copy of all the detailed spreadsheets utilized to
       develop the Government’s objective and maximum positions in the Pre-
       Negotiation Position Memorandum;

   •   The contract file should contain a copy of all FPRAs and FPRRs that were
       utilized to develop the Government’s objective and maximum position in the Pre-
       Negotiation Position Memorandum; and

   •   Electronic copies of all FPRAs and FPRRs should be saved on the shared drive
       and everyone in the office should be aware of where the files are located.

Management actions taken were sufficient to address the lack of documentation related to
contracting officer spreadsheets and FPRAs. However, management actions did not
address the Station Program Implementation Plan requirement for completion of IGCEs
or the requirement to provide contract file documentation that supports and explains the
contracting officers’ use of rates other than those recommended by DCMA.

Recommendation, Management’s Response, and Evaluation of
 Management’s Response
ISS procurement management should reinforce the Station Program Implementation Plan
requirements for development and documentation of IGCEs, when required, and
reinforce compliance with FAR requirements to sufficiently document the contract file to
support contract actions taken to include use of rates other than those recommended by
DCMA.

   Management’s Response. The Director, Johnson Space Center concurred, stating
   that ISS contract management requires constant vigilance due to the nature of the
   large, complex, and diverse issues that they encounter. The Station Program
   Implementation Plan is one tool they use to ensure the contracts are managed in an
   efficient and effective manner. During a March 12, 2008, procurement staff meeting
   that also included managers from the Assessments, Cost Estimating, and Schedules
   Office, the Manager of Space Station Procurement Office reiterated that
                                                                                            9



       •   when IGCEs are required for contract changes, those documents should be
           provided to the responsible contracting officers for inclusion in the contract
           files.

       •   contracting officers within the ISS Procurement Office will clearly document
           the contract file regarding indirect rates utilized for developing the
           Government’s negotiation position, especially if those rates are other than
           those recommended by DCMA.

   Evaluation of Management’s Response. Management’s completed action is
   responsive. The recommendation is resolved and closed based on management’s
   corrective action taken.

We appreciate the courtesies extended during our audit. If you have any questions, or
need additional information, please contact Mr. Vincent Scott, Procurement Director,
Office of Audits, at 202-358-0546.



       (signed) A. Dahnelle Payson for
Evelyn R. Klemstine

2 Enclosures

cc:
Procurement Officer, Johnson Space Center
International Space Station Program Manager, Johnson Space Center
                              Scope and Methodology
We performed this audit from September 2007 through June 2008 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

Our universe consisted of 81 modifications from four contracts valued at $1,697,577,583.
We used EZ-Quant to determine the sample size and generate random numbers for
selecting our sample items. Our sampling frame was the population of ISS contract
modifications over $650,000, which is the Federal Acquisition Regulation (FAR)
threshold for obtaining cost or pricing data, for fiscal years 2004 to 2007. We applied the
Discovery Acceptance Sampling Approach under the guidance of the Defense Contract
Audit Manual, Section B-403.1. We selected a risk factor of 10 percent, which generated
a confidence level of 90 percent that the error would be detected in the sampled
population. This resulted in a sample of 35 modifications valued at $213,977,647 from
the universe of 81 modifications (43 percent). However, NASA occasionally combines
several contract actions into a single negotiation. That practice of combining contract
actions resulted in our reviewing 59 negotiated contract actions in total to determine our
sample of 35 modifications. The two Russian contracts and modifications were not
included in our review, and one Boeing contract was not included because it did not have
any modifications over $650,000. Further, we limited our review exclusively to an
evaluation of costs and did not consider other factors that might have influenced the
contracting officers’ negotiations, such as quality, timeliness, or technical ingenuity.

We interviewed the ISS Vehicle Sustaining Team Lead/ISS Contracting Officer for the
Boeing Contract to determine the procedure for processing a change request. We also
interviewed and worked with various other ISS contracting officers to determine their
rationale for what rates were used and agreed to when negotiating modifications as well
as how their contract files were maintained.

We reviewed the contract files to determine if pertinent cost or price analyses documents
such as technical evaluations, pricing reports, PPMs, PNMs, and applicable IGCEs were
included in the contract files. We used the contracting officers’ spreadsheets, pricing
reports, and PPMs to determine the labor and overhead rates proposed by the contractor
and used by the Government. When possible, the rates were verified by checking the
applicable DCMA FPRA or FPRR for approved or recommended rates or checking
applicable DCAA reports for audited rates. (NASA may request DCAA to audit the
FPRAs or FPRRs for accuracy and then rely on the audited results for the basis of
negotiations.)

We relied on FAR and the NASA FAR Supplement for guidance concerning cost or price
analysis.


                                                                               Enclosure 1
                                                                               Page 1 of 2
Computer-Processed Data. We did not rely on computer-processed data to perform this
audit.

Review of Internal Controls. We reviewed and evaluated the internal controls
associated with negotiating contracts and the supporting documentation. Except for the
internal control problem regarding documentation missing from contract files, we did not
find reportable internal control weaknesses. Management action taken in response to our
concerns about the lack of documentation corrects the identified internal control
weakness.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the NASA
Office of Inspector General (OIG) have issued four reports of particular relevance to the
subject of this memorandum. Unrestricted reports can be accessed over the Internet at
http://www.gao.gov (GAO) and
http://www.hq.nasa.gov/office/oig/hq/audits/reports/FY07/index.html (NASA).

Government Accountability Office

“Opportunities to Improve Pricing of GSA Multiple Award Schedules Contracts”
GAO-05-229, February 2005

“Relocation of Space Shuttle Major Modification Work” GAO-03-294R, December 2002

National Aeronautics and Space Administration

“Subcontract Management by United Space Alliance under the Space Flight Operations
Contract” IG-06-013, August 2006

“Florida Power and Light’s Contracting and Operating Practices at Kennedy Space
Center” S-07-010-00, November 2007




                                                                              Enclosure 1
                                                                              Page 2 of 2
Management’s Comments




                                      The staff
                                      meeting was
                                      for the
                                      procurement
                                      staff.




                        Enclosure 2
                        Page 1 of 2
Enclosure 2
Page 2 of 2
